Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 Child Support Enforcement State
        Satisfaction Survey

             Case Studies




                   JUNE GIBBS BROWN
                    Inspector General

                       AUGUST 1998
                      OEI-02-97-00311
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's New York Regional Office prepared this report under the direction of John I. Molnar,
Regional Inspector General and Renee C. Dunn Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                                  HEADQUARTERS

Demetra Arapakos, Project Leader                     Linda Hall, Program Specialist
Jennifer Caves                                 Ann O’Connor, Program Specialist
Daniel Ginsberg



       To obtain copies of this report, please call the New York Regional Office at 212-264-1998.
          Reports are also available on the World Wide Web at our home page address:

                                 http://www.dhhs.gov/progorg/oei
                    EXECUTIVE SUMMARY


PURPOSE

To develop case studies for six State child support enforcement programs to supplement a
recently completed child support enforcement State satisfaction survey. Overall, this survey
found that most States are satisfied with the Federal Office of Child Support Enforcement
(OCSE) and praise the increased Federal/State partnership in the program.

BACKGROUND

These case studies are a follow-up to a recently completed inspection, “Child Support
Enforcement State Satisfaction Survey,” OEI-02-97-00310. We conducted these case studies in
order to obtain supplemental, qualitative information on State programs and to speak with child
support staff from different levels in the program.

The Federal Office of Child Support Enforcement (OCSE) requested that we survey States to
determine their experiences and satisfaction with OCSE, and to identify any areas for
improvement. In that survey we found that most States are satisfied overall with both the central
and regional OCSE offices, although they rate some regional offices higher than others. States
rate OCSE high on communication, coordination, recent contacts, and program support, and
believe that the Federal offices work with them as partners. States offer suggestions for
improving their relationship with OCSE, including improving the timeliness of communications to
States and strengthening the role of regional offices. They would also like OCSE to provide more
systems and practical support and training, continue to improve the audit process, and improve
the timeliness of the Annual Report to Congress.

The Child Support Enforcement Program was established in 1975 under Title IV-D of the Social
Security Act. The goal of this program is to ensure that children, from both Temporary
Assistance for Needy Families (TANF) and non-TANF families, are financially supported by both
parents. It is administered at the State level and overseen Federally by OCSE. The OCSE has its
central office in Washington D.C. and 10 regional offices throughout the country. A recently
completed Strategic Plan emphasized the forging of Federal/State partnerships.

We selected six States for site visits: Colorado, Massachusetts, Minnesota, New York, South
Carolina and Texas. In selecting these States, we looked for variation in the level of satisfaction
noted in the earlier survey. We also selected States from different regions and with different
program administration. In each State, we conducted interviews with respondents from both the
State and local or county level. In presenting our individual case studies, we are reporting the
opinions and perspectives of the respondents we interviewed and did not attempt to verify the
accuracy of their responses. In addition to reporting each State case study individually, we
conducted a cross-case analysis and report the results of this analysis in a cross-case summary.



                                          )))))))))))
                                               i
CROSS-CASE SUMMARY

Federal and State Roles

Respondents in the six States we visited envision different roles for OCSE in the Child Support
Enforcement program. Some favor more limited Federal involvement in the program, while
others advocate an even stronger Federal role than currently exits. Respondents in the six States
also have differing opinions about the role and value of their regional office, which range from
describing that office as a vital resource to questioning its value. Despite these differences,
respondents agree that OCSE provides important support to their State program. They do,
however, believe OCSE should obtain State input on proposed regulations before finalizing them,
and get new information and regulations to the States sooner.

Interstate Cases

In five of the six States, respondents describe interstate cases as challenging and difficult. These
respondents believe OCSE should play a stronger role in interstate cases and offer different
suggestions for what type of role OCSE could play. These include facilitating more information
sharing, providing better access to interstate case data, compiling an updated interstate case
reference guide, mandating procedural uniformity between States, and intervening when one State
is not cooperating with another State.

State Innovative Practices

All of the States we visited have innovative practices that respondents believe contribute to the
success of their child support programs. Some of these practices were funded with OCSE
demonstration competitive grant funds. They vary widely across States, with some involving
ways to enhance communication between players in the child support program and others
focusing on ways to broaden their program’s services. Respondents in all States believe in the
importance of trying new approaches in order to succeed in an increasingly complex child support
environment.

Future of the Program

Most respondents are optimistic about the future of the program and believe it will become more
successful and more responsive to the needs of the public. Many believe that automation will
result in improved collection rates, program efficiency, and communication between States.
Respondents also say the program will continue to incorporate a more comprehensive approach
to serving families. Some say the challenge is to remain focused on collections while expanding
the program. Finally, other respondents are concerned about anticipated funding changes due to
welfare reform.




                                         )))))))))))
                                              ii
STATE CASE STUDIES

In presenting the six State case studies, we report on each program’s highlights, working
relationships with OCSE, and suggestions for support. Significant variation exists between the six
States for all three topics. These case studies are presented in the report following the cross-case
summary.

COMMENTS

We received comments on the draft report from the Administration for Children and Families
(ACF). They believe that most of the States’ suggestions are pertinent and helpful, and ACF
notes its efforts to work with the States to address the suggestions. A copy of the full text of
ACF’s comments is in Appendix A.




                                          )))))))))))
                                               iii
                              TABLE OF CONTENTS


                                                                                                                                    PAGE
EXECUTIVE SUMMARY


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



CROSS-CASE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4



STATE CASE STUDIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


          Colorado . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


          Massachusetts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          Minnesota . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


          New York . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


          South Carolina . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


          Texas . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21



APPENDIX


A: Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1

                            INTRODUCTION

PURPOSE

To develop case studies for six State child support enforcement programs to supplement a
recently completed child support enforcement State satisfaction survey. Overall, this survey
found that most States are satisfied with the Federal Office of Child Support Enforcement
(OCSE) and praise the increased Federal/State partnership in the program.

BACKGROUND

These case studies are a follow-up to a recently completed inspection, “Child Support
Enforcement State Satisfaction Survey,” OEI-02-97-00310. We conducted these case studies in
order to supplemental qualitative information on State programs and to speak with child support
staff from different levels in the program.

The Federal Office of Child Support Enforcement (OCSE) requested that we survey States to
determine their experiences and satisfaction with OCSE and to identify any areas for
improvement. In that survey we found that most States are satisfied overall with both the central
and regional OCSE offices, although they rate some regional offices higher than others. States
rate OCSE high on communication, coordination, recent contacts, and program support. They
also believe that the Federal offices work with them as partners. States offer suggestions for
improving their relationship with OCSE, including improving the timeliness of communications to
States and strengthening the role of regional offices. They would also like OCSE to provide more
systems and practical support and training, continue to improve the audit process, and provide a
timely Annual Report to Congress.

Child Support Enforcement Program

The Child Support Enforcement Program was established in 1975 under Title IV-D of the Social
Security Act. The goal of this program is to ensure that children, from both Temporary
Assistance for Needy Families (TANF) and non-TANF families, are financially supported by both
parents. The major services provided by the program include the following: 1) locating
noncustodial parents; 2) establishing paternity; 3) establishing child support obligations; and 4)
enforcing child support orders.

The Child Support Enforcement Program is administered at the State level and is overseen
Federally by OCSE. One of OCSE's primary roles is to fund, evaluate, and provide technical
assistance to the States. The OCSE also sets program standards and policy, and provides
guidance to States in implementing that policy. Additionally, it provides support for automated
systems, research and demonstration projects, and operations.

The OCSE has a central office in Washington D.C. and 10 regional offices throughout the
country. Each of these regional offices has a regional child support program manager who


                                         )))))))))))
                                              1
oversees a staff of child support enforcement program specialists. The structure and size of each
regional office varies from region to region.

Although State agencies have considerable autonomy in administering services, Federal
regulations specify minimum standards of program operation. In addition to providing the four
major services listed above, States must also have procedures in place to maintain case records,
establish medical support orders, withhold wages and taxes, and modify support orders. Federal
regulations further require that these services be carried out in a timely manner.

The program has been growing since its inception. In fiscal year 1993, the program's caseload
consisted of approximately 17 million cases, and almost 9 billion dollars in child support was
collected. By 1995, the caseload had increased to over 19 million cases; monetary collections
were up to 10.8 billion dollars.

Recently, the OCSE worked with its State partners to develop a Strategic Plan for Fiscal Years
1995-1999. The plan emphasizes both the coordination of service delivery systems and the
forging of new partnerships at all levels to make the Child Support Enforcement Program more
results-oriented and responsive to customers.

METHODOLOGY

We selected six States for site visits: Colorado, Massachusetts, Minnesota, New York, South
Carolina, and Texas. In selecting these States, we sought a mix of different cases: States satisfied
with both the central and regional OCSE offices; States satisfied with the central office but not the
regional office; and States satisfied with the regional office but not the central office. We also
looked for States from different regions and with different program administration (State and
county administered). Finally, we included at least one State from the Big Eight initiative.

In each State, we conducted interviews with respondents from both the State and local or county
level. During each of our site visits, we spoke to two or more State respondents, such as staff
from policy, legal, systems, interstate, financial, operations and audit divisions. We also visited
one or more local or county offices, where we spoke with caseworkers and office or regional
manager(s). In reporting these case studies, we will refer to respondents from the State programs
as “State respondents” and respondents from the local or county offices as “local respondents.”

In addition to reporting each State case study individually, we conducted a cross-case analysis and
report the results of this analysis in a cross-case summary. In doing this, we identified issues
common to respondents from the six States we visited. These include Federal and State roles in
the program, interstate cases, innovative practices, and the future of the program.

In presenting our individual State case studies, we are reporting the opinions and perspectives of
the respondents we interviewed and did not attempt to verify the accuracy of their responses.

This inspection was conducted in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.


                                          )))))))))))
                                               2
                           CROSS-CASE SUMMARY

In analyzing the interviews of respondents in the six States, we identified four issues of common
interest to all. These are Federal and State roles, interstate cases, State innovative practices, and
the future of the program.

Federal and State Roles

Respondents in the six States we visited envision different roles for OCSE in the Child Support
Enforcement Program. Some favor more limited Federal involvement in the program, while
others advocate an even stronger Federal role than currently exists. Those who favor less
involvement believe States should be given more flexibility to develop and administer a program
that is more suited to their particular program structure and political environment. In contrast,
respondents who advocate more Federal involvement believe greater uniformity is needed in the
program. While respondents in general acknowledge the merit of both perspectives, in one of the
States we visited, respondents overwhelmingly favored strong State autonomy.

Respondents in the six States also have differing opinions about the role and value of their
regional OCSE offices. Some work very closely with the regional office and say it is a vital
resource. Others have a good relationship with the regional office but wonder how that office can
be strengthened. Respondents in one State believe the regional office has an unclear function and
see little value in it. Nevertheless, a majority of respondents in the six States would favor
strengthening the regional office role.

In all six States, respondents agree that OCSE offices play a crucial role in providing support to
their State programs. In particular, they cite systems support, information sharing, policy
clarification, case specific issues, and general program expertise. However, respondents from
some of the States raise two important concerns. First, they say OCSE needs to obtain State
input on proposed regulations and policies before finalizing them. They say OCSE should
consider how program changes will impact State programs, as well as how such changes will be
implemented. Second, respondents say OCSE should get new information and regulations out to
the States sooner in order to allow them sufficient time to implement changes and meet deadlines.

Despite the differences noted above, respondents in all six of the States look to OCSE for
guidance and to develop a national child support agenda. It is how States meet that agenda that
varies.

Interstate Cases

In five of the six States we visited, respondents describe interstate cases as challenging and
difficult. While respondents give positive feedback about the Uniform Interstate Family Support
Act (UIFSA), they say States still lack uniformity in processing these cases and do not all share
the same commitment to working interstate cases. Such variations makes these cases especially
frustrating and time consuming. Respondents also say it is difficult to resolve a case when
another State is uncooperative.

                                           )))))))))))
                                                3
Respondents in all five States believe that OCSE should play a stronger role in interstate cases
and offer different suggestions for what type of role OCSE could play. Even in a State that
generally does not favor Federal involvement in the child support program, respondents agree that
some national interstate case standards would be useful. Respondents from some States say
OCSE should facilitate more information sharing, such as providing better access to interstate
case data and compiling an updated interstate case reference guide. Others favor even more
Federal involvement, and would like OCSE to mandate uniformity across States. They believe
OCSE should mandate the standardization of interstate forms, accounting procedures, and dispute
resolution. They also say OCSE should intervene when one State is not cooperating with
another.

State Innovative Practices

All of the States we visited have innovative practices that respondents believe contribute to the

success of their child support programs. Some of these practices were funded with OCSE

demonstration competitive grant funds. They vary widely across States. Some involve ways to

enhance communication between players in the child support program, while others focus on ways

to broaden their program’s services. Respondents cite the following initiatives as being

particularly noteworthy:


C      using video-conferencing; 

C      keeping updated lists of specialist contacts; 

C      centralizing customer services to one telephone hotline center;

C      automating enforcement procedures;

C      establishing pregnancy prevention programs in schools; 

C      developing various fatherhood initiatives, such as special mailings to non-custodial

       parents; and
C      cooperating with other State agencies to process difficult cases.

Respondents in all States believe in the importance of trying new approaches in order to succeed
in an increasingly complex child support environment; in fact, one State tests many of its
demonstration projects in order to systematically evaluate the effectiveness of each one. Says one
respondent, “We need to keep thinking out of the box.”

Future of the Program

Most of the respondents in the six States we visited share a common vision of where the Child
Support Enforcement Program is headed in the future. They believe that the program will
continue to grow and incorporate new elements that will make it more successful and more
responsive to the need of the public it serves.

Many respondents believe the program will see increased automation. Despite difficulties in
systems development and implementation, they are hopeful that increased automation will result in
increased collections and program efficiency. They are also optimistic that a growth in
automation will enable States to better communicate with each other and collect comparable data.


                                         )))))))))))
                                              4
Respondents anticipate other procedural changes in the program in addition to increased
automation. These include greater streamlining, the increased availability of administrative
remedies, and in increased trend towards centralized processing. However, some local
respondents in county administered States worry that more centralization may keep local
jurisdictions “out of the loop.”

Respondents also say the program will continue to broaden in scope. They envision the program
expanding to incorporate not just paternity establishment and enforcement, but a more holistic and
comprehensive approach to families. With increased initiatives in fatherhood, domestic violence,
and non-custodial visitation and access, they believe the program will meet a wider range of their
clients’ needs.

While respondents acknowledge the value of expanding the program, some say the challenge is to
remain focused on the primary purpose of the program, which is to collect money from non-
custodial parents. Some point to the tension between new initiatives on the one hand and
resource limitations on the other. Says one respondent, “While acknowledging the importance of
providing additional services such as fatherhood, make sure that the primary function [of child
support enforcement] is not diluted given limited staff and funding.”

Respondents are also concerned about anticipated funding changes with welfare reform. In one
State, respondents say that with an increasing non-TANF caseload, child support may become
less of a priority on the State’s political agenda and may result in fewer resources. In another
State, respondents believe restrictions on immigrants may result in more limited resources for
those cases. In both States, respondents say their program performance may drop, which could
lead to financial penalties under the new incentive funding rules.

Despite these concerns, however, respondents in all the States we visited are optimistic about the
future of the program. They applaud the movement toward a stronger Federal-State partnership.
One respondent remarks, “Things are headed in the right direction in the relationship between
Feds and States. States are involved and informed, and that is so important.” Many are also
enthusiastic about how the program is evolving. “It’s the place to be,” comments one respondent.




                                         )))))))))))
                                              5
                             STATE CASE STUDIES


                                          COLORADO

Respondents Interviewed

We interviewed four State Child Support Division staff from the operations, policy/evaluation,
and systems sections. We also toured a medium-sized county office and interviewed the county
IV-D administrator, a legal technician (caseworker), and a case accounting clerk.

Program Highlights

State and county respondents believe that Colorado’s child support program is progressive and
successful. They attribute much of this success to three key features in their program: the
Colorado Child Support Task Force, long-term planning, and innovation.

The first of these, the Colorado Child Support Task Force, brings together many players in the
program to plan, discuss, and problem-solve. One State manager says the Task Force is “a
stunning success.” The group is co-chaired by the State IV-D director and a county social
services department director and includes Colorado’s regional OCSE representative, State
managers, and county administrators. Over 150 child support workers from around the State
serve as members of Task Force sub-committees, which work on specific topic areas.

State and local respondents say the Task Force promotes frequent, open communication among
different State partners. They say that Task Force participation is one reason Colorado counties
are “in sync” with each other and with the State office. They also believe that the targeted work
of the sub-committees allows Colorado to meet implementation deadlines and find efficient
solutions to complex enforcement issues. Legal technicians in particular appreciate the
opportunity to provide input and offer their practical casework expertise.

Colorado also has a history of commitment to long-term planning. State respondents view long-
term plans as communication tools and tactical guides to achieving goals. They say their long-
term State plan is key to helping Colorado quickly respond to legislative changes to the program.
For example, their plan has already been amended to include performance measures needed for
the proposed incentive funding rules.

Finally, Colorado invests heavily in demonstration projects, which respondents believe is crucial
to succeeding in the increasingly complex, dynamic child support program. One current
demonstration, the “model office project,” involves testing 30 interventions in three counties (one
small, one medium, and one large county office). These interventions include new approaches to
customer service, systems interfacing, inter-agency cooperation, and parent opportunity
programs.



                                         )))))))))))
                                              6
Working Relationships

State respondents interact frequently with the central OCSE office, and at least seven State staff
are currently serving on national workgroups. They believe these workgroups are good forums
for discussion between State and Federal members and feel that their input is heard and valued by
OCSE staff.

Some State respondents also deal with central OCSE staff on an individual basis, especially those
involved in systems development. These respondents say they have strong, positive relationships
with central OCSE systems and technical assistance staff. They say that although central systems
people are busy, they remain responsive, and have met State expectations for support. They
believe, however, that other central OCSE sections, such as policy, have been less responsive,
leading to some delays and frustration.

State relationships with regional OCSE staff are also generally positive. State respondents from
several divisions say they have frequent, open communication with the regional OCSE office. The
regional director is seen as a strong advocate for the program. State managers say the regional
director facilitates communication among States in the region, and was instrumental in getting all
the States committed to the Child Support Enforcement Strategic Plan. “She supports our
program and touts our accomplishments,” says one respondent.

State staff also work closely with their regional OCSE representative. They appreciate his active
participation on the Colorado Child Support Task Force and on a national workgroup.
Respondents say he is an integral part of Colorado’s program, and one comments that the
representative “understands the specifics of our program in a way that D.C. can’t.” The only
differing opinion about regional relations comes from systems respondents, who believe that
regional staff’s usefulness is limited by their lack of authority. They view communication with
regional OCSE as redundant and cumbersome, since regional staff must check with central OCSE
before making any commitment.

Local respondents report generally having very little interaction with either the central or regional
OCSE office. Recently, however, the county administrator has been working closely with central
and regional OCSE staff to resolve a problem that has prevented collecting child support from
Federal prison inmates. This respondent says that OCSE has been helpful, accessible, and
responsive to this situation. All local respondents say they would like more interaction with
OCSE, such as more on-site visits from Federal staff and more opportunity for local input into
policy development. They feel that, except for the prison issue, Federal offices do not really want
to hear from them.

State Suggestions

While State and local respondents enjoy the flexibility they have as a county-administered
program, they would support OCSE playing a more active role in certain parts of the program. In
particular, they think OCSE could help Colorado’s program by facilitating collections from
Federal prison inmates and interstate case processing, and developing common standards and


                                          )))))))))))
                                               7
procedures for statistical reporting and Financial Institutions Data Match.

A few respondents suggest that OCSE assist in evaluating new program developments, such as
State centralized processing and privatization. They would like OCSE to study the effectiveness
of these approaches.

Many respondents say they would like OCSE to consider how new regulations will be
implemented before finalizing them. State respondents think that OCSE often waits too long to
offer guidance about how to implement new policies. For example, respondents say that they
have not yet received the guidance or requirements they need to begin collecting self-audit data
(which OCSE requires they begin collecting in March 1998). Furthermore, State systems
respondents say they could develop and implement more efficient systems if OCSE would give
them the “big picture” of upcoming plans and changes, rather than fragmented pieces of
information. Local respondents also think OCSE should become more knowledgeable about
casework operations before passing regulations. They say Federal staff should spend time in
county offices, and should ask county staff for advice about potential implementation problems.

Finally, a few respondents from both the State and local offices think OCSE should take a
stronger leadership role in increasing the use of technology in communication and training. They
suggest that video conferencing and computer-based training would increase State participation
and save resources.

State Child Support Director:	        Pauline Burton
                                      Division of Child Support Enforcement
                                      Department of Human Services
                                      1575 Sherman Street, # 220
                                      Denver, CO 80203-1714
                                      (303) 866-5994




                                          )))))))))))
                                               8
                                       MASSACHUSETTS

Respondents Interviewed

We interviewed three State program officials who work in the self-assessment and policy and
procedures divisions. We also visited a regional office, where we interviewed two regional office
attorneys, one a regional office manager and the other an interstate specialist, and a caseworker.

Program Highlights

Massachusetts has enjoyed a strong national reputation in child support enforcement. In
particular, all respondents cite a strong enforcement program as one of the State’s biggest
successes, resulting in a significant increase in collections over the past several years. Many of its
enforcement options have been automated, including administrative remedies such as license
revocation and tax offset. This automation has also enabled the State child support program to
interface with other State networks, and identify assets or incomes that can be seized to satisfy a
child support debt. Massachusetts’ enforcement capabilities are also strengthened by strong State
legislation.

Respondents say Massachusetts has also been a program leader in two other ways. It is one of
the first to introduce a self-assessment component into its program evaluation. Staff from the
self-assessment unit are situated in all the regional offices across the State. Massachusetts has
also developed several fatherhood initiatives designed to reach non-custodial parents and to
encourage them to play a more active family role; respondents believe that greater involvement in
the family will result in a greater likelihood to pay child support. Among these initiatives is a
recent mailing to non-custodial parents who were late on their payments. The letters reminded
these parents that their child would soon be celebrating a birthday and asked them to use this
happy occasion to renew their financial obligations.

Respondents additionally believe the State has been successful in conducting outreach on child
support and conveying a stronger message to the public about the importance of the program.

Working Relationships

State respondents’ interaction with the central OCSE office consists mostly of participating on
national workgroups, occasionally commenting on proposed legislation, responding to surveys,
and asking for technical assistance. They say participating on national workgroups is a good way
to be more active in the program and to share ideas and experiences with other members. They
describe overall communication with the OCSE central office as good and the staff as generally
helpful and responsive.

One State respondent, however, believes that the central OCSE office can improve the timeliness
of its communication to the States. This concern was also raised by several States in the earlier
satisfaction survey. She says that new regulations or policies are not always shared as early as
States need them. Once she has received the regulations, she needs time to read and interpret


                                          )))))))))))
                                               9
them, develop appropriate State policies and procedures, disseminate these policies and
procedures throughout the State, and train staff. This respondent also says that Federal
communications at times appear to be conflicting, making it difficult for the State to discern a
clear message.

State respondents are in more frequent contact with their regional OCSE office, working together
with that office on their State plan, training issues, assisting in compiling best practices, and case
specific matters. They describe an open relationship with the regional office, and say the staff are
responsive and eager to help.

Two State respondents mention that their relationship with the regional OCSE office is very
dependent on the individual assigned to their State. They say they had a very strong, close
relationship with the representative they used to work with and wonder why this person was
moved to another State. These respondents also express some uncertainty about the role of their
regional OCSE office. They say they are not sure when it is appropriate to call the regional office
and what support they can expect to receive.

Respondents at the local office have virtually no contact with the central OCSE office, although
the caseworker has had direct contact with central office staff on a specific native American case
and found the staff to be very helpful and responsive on that matter. While local respondents are
more likely to contact staff from the State office with questions and concerns, they also have
contact with the regional OCSE office. More specifically, they seek help from the regional office
on interstate cases and other case specific issues; most of this communication is by phone. The
OCSE regional office also refers cases, usually high profile cases or those that have been referred
to them by State officials, to the local office for processing.

Local respondents believe their relationship with the regional OCSE office is generally good; they
say staff at the office are responsive to their needs and that the assistance they receive is usually
timely. Local respondents also say that regional OCSE intervention in specific cases is always
helpful, as is receiving information about other States in the region. They say they would like
more involvement from their regional office, including more training and on-site visits, and
question how they can better access their regional OCSE office as a resource.

State Suggestions

Both State respondents believe there is a need for greater Federal involvement in the program to
assure common standards. They particularly cite interstate cases as warranting more commonality
in standards, especially since these cases constitute approximately one-third of the national
caseload. Local office respondents also describe interstate cases as being particularly challenging.
 The caseworker says these are her most difficult cases and that, despite UIFSA, not all States are
following the same procedures or using the same documentation. One local office manager says
that when OCSE has intervened in interstate cases, the outcome has been positive. She believes
there is a need for a formal mechanism States can utilize when another State does not respond or
cooperate on these cases.



                                          )))))))))))
                                               10
Other suggestions for OCSE support include providing more training and disseminating more
information to the States. Local office respondents believe more direct communication with
regional offices and a better Federal understanding of States’ day-to-day operations and
procedures would help them on the local level.

Furthermore, one State respondent suggests the regional office can facilitate information sharing
between the States. Another State respondent believes the central OCSE office should develop
guidelines for hiring and training regional OCSE staff, in order to ensure States have good
regional representatives.

Respondents also suggest that OCSE acquire a greater understanding of their State’s government
and organizational structure. Related to this, one respondent believes Federal staff needs a better
understanding of the impact of new regulations and policies, including the impact on families. She
says that OCSE is too far removed from the practical side of the program and from the people it
serves.

Finally, State respondents believe the relationship between the State and OCSE should be
mutually supportive, and less focused on monitoring and auditing. They say establishing trust is
crucial to having a positive relationship. They also believe there should be one or more
individuals in the State office who will be the main OCSE contacts.

State Child Support Director:	        Amy Peder
                                      Child Support Enforcement Division
                                      Department of Revenue
                                      141 Portland Street
                                      Cambridge, MA 02139-1937
                                      (617) 577-7200




                                         )))))))))))
                                              11
                                           MINNESOTA

Respondents Interviewed

We interviewed a manager of operations and a project management manager from the State
Office of Child Support Enforcement. We also interviewed a division manager, a collections
service officer, a principal child support officer, and an economic assistance unit supervisor at a
county office.

Program Highlights

Each State and local respondent we spoke with was enthusiastic about Minnesota’s child support
program. Much of this enthusiasm stems from three key features of the State program: reliable
State support for child support, program innovation, and the high degree of coordination existing
between Minnesota’s counties. State support in Minnesota goes beyond openness to new
initiatives and mandates from OCSE; it also means a commitment to fund the program
consistently, to plow incentive funds back into the program, and to attract and retain skilled
employees with realistic caseloads. Respondents at both the State and local level feel that this
support has not only helped them to more easily keep pace with a rapidly changing program but
has also allowed them to maintain an innovative, high quality program.

Respondents also cite an innovative approach as another chief success of Minnesota’s program,
as exemplified by income withholding, COLAs, medical support, video-conferencing and
telecommuting. They believe this program innovation has a positive impact on both the program
and on the children it serves. Says one State respondent, “[innovation] translates to a quality
program in contrast to States that just aim to get by. Staff in [those] States are qualified and
frustrated at being shackled.”

Finally, respondents feel that Minnesota benefits tremendously from the high degree of
coordination between the counties and between county and State offices, and count this
coordination among the program’s chief successes. They say they work hard to ensure all orders
are consistently handled from county to county.

Working Relationships

State and local respondents say that many new national initiatives are on the right track. “Most of
the mandates,” remarks one respondent, “are program improvements, and if [OCSE] didn’t
mandate it, the States wouldn’t do it.” Respondents at both the State and local levels who have
contact with the central and regional OCSE offices also report strong communication; these
offices are seen as being both responsive and open to input from the State. One State and one
local respondent see this increased responsiveness and openness as a marked improvement in the
central office.

Respondents also think OCSE’s information sharing and partnership with the States is strong.
One State respondent cites the documentation for New Hire among the biggest successes in her
relationship with OCSE. A local respondent cites increased Federal/State partnership as the chief

                                          )))))))))))
                                               12
success in his relationship with OCSE, saying “[They] recognize that there are staff at the local
level that should be involved in discussions of program changes and enhancements.”

State respondents raise two concerns related to the regional OCSE office. First, they would like
the regional office to visit more frequently. They also express some concern about the
relationship between the regional and central OCSE offices. One respondent remarks,
“Sometimes the region does not feel as connected to central office as they might be. They are not
always kept informed as well as they could or should be.”

A local respondent is concerned that OCSE might be losing program expertise as key players
retire or leave for the private sector. The respondent believes that if hiring is restricted to Federal
staff, then there is a great possibility that the replacements, though competent, will have no
program expertise whatsoever. The respondent raises the possibility of hiring competent State
and local workers who have program experience.

State Suggestions

Respondents believe there are several ways for OCSE to help them further with their program.
First, they would like more help with interstate cases, even though they are enthusiastic about
UIFSA. Respondents most commonly express a desire for interstate access to Federal Employer
Identification Numbers. A local respondent also mentions that there are some very helpful
interstate forms that are not consistently used. Respondents feel that more interstate data would
prove helpful, as would more consistency between States.

A State respondent also believes the most helpful thing OCSE could do would be to solicit input
from the States prior to developing regulations or program changes. In particular, she says that
before finalizing future systems changes, OCSE should first seek input from State systems staff.

Local respondents offer further suggestions for OCSE to help them. One local manager would
like to see increased allocation of funds for the regional office to conduct more training, as well as
for State and local workers to attend out of State training. A local respondent believes OCSE has
been emphasizing greater program centralization in the States and that this emphasis is not always
appropriate if a county administered program is working well.

State Child Support Director:	         Laura Kadwell
                                       Office of Child Support Enforcement
                                       Department of Human Services
                                       444 Lafayette Road, 4th floor
                                       St Paul, MN 55155-3846
                                       (612) 297-8232




                                           )))))))))))
                                                13
                                          NEW YORK

Respondents Interviewed

We interviewed two State program officials in the fiscal and program operations divisions. We
also visited a local child support office, where we interviewed a caseworker and had an informal
discussion with the office manager. Finally, we interviewed a regional director of enforcement.

Program Highlights

As a county-administered program, the New York child support program encompasses such
diverse areas as New York City and largely rural counties in the State’s north. Respondents
primarily cite New York’s wide variety of enforcement options, including incoming withholding,
license revocation, income tax offset, and unemployment insurance and lottery intercept, as one of
the program’s biggest successes. One State respondent mentions in particular the State’s ability
to use administrative processes for enforcement purposes. New York has also established
partnerships with other State agencies, such as those for finance and motor vehicles, to work
together with them on difficult cases.

New York’s certified system is also mentioned as a success. New York has had a successful
system in place for several years and State respondents say they have a good working relationship
with OCSE systems staff. They believe this strong systems capacity has strengthened their
program and enabled them to streamline their operations.

New York has also seen increases in performance measures for paternity. They have actively
promoted the in-hospital paternity program. State program staff visited all hospitals in the State
in order to stress the importance of in-hospital paternity establishments.

Working Relationships

State program respondents describe a generally positive relationship with the central OCSE office.
They describe this relationship as supportive and strong and their interaction with the central
office as helpful and useful. They also say OCSE staff have generally been accessible. These
respondents have participated on Federal workgroups and stress the benefits of their participation,
including facilitating information sharing between workgroup members and fostering relationships
between members.

One State respondent, however, mentions a lack of timeliness in his communication with the
central office. He believes prior delays in the dissemination of public policy have at times made
administration of the program difficult. Furthermore, he believes the central OCSE office has
minimal knowledge of States’ laws and therefore are only able to provide limited operational input
to the States.

In contrast to their relationship with the central OCSE office, State respondents appear to have
mixed comments on their relationship with the regional OCSE office. One State respondent has


                                         )))))))))))
                                              14
infrequent contact with the regional office because he feels they have limited authority to make
decisions and have an unclear program function. This respondent prefers to work directly with
the central OCSE office on policy and procedural matters and therefore sees little value of the
regional office. The other State respondent has worked more closely with the regional OCSE
office but says his relationship with this office has been cyclical. He says that his communications
with them they have generally been timely and responsive, if not always helpful. He believes the
regional office should be supportive of any State initiatives between the State program and the
central OCSE office.

Local respondents have no contact with the central OCSE office and only very minimal
interaction with the regional office. One respondent does think the regional office has a role to
play in interstate cases, specifically in ironing out any differences between States. When asked to
identify features of the local program that OCSE should be aware of, this respondent points to the
difference between running a local child support program in a large urban region and running one
in a non-urban region. However, he says that he would first go to the State office with any
questions or concerns he may have before contacting Federal staff.

State Suggestions

State respondents offer several examples of how OCSE could be more helpful to them in New
York. They include providing more timely policy publications, such as action transmittals or
regulations, becoming more actively involved in analyzing and proposing new child support
legislation, with appropriate input from States, and providing more hands-on technical assistance
to help in working out problems. In particular, one State respondent suggests that OCSE provide
management seminars for State child support program managers.

Interstate cases are cited as being particularly challenging for the State child support program.
One State respondent mentions that, despite UIFSA, States lack uniformity in their processing of
interstate cases. He believes that more Federal guidelines are needed for these cases, and also
suggests that OCSE put together an updated interstate reference guide.

State respondents also commend OCSE’s efforts to involve States more in developing program
policies and procedures. They have appreciated being involved in the decision-making process,
and also say that the increased Federal/State partnership has given OCSE a greater opportunity to
become more familiar with State operations. Says one State respondent, “[OCSE should] try to
be part of the solution, not just telling us what to do.” New York State staff have worked directly
with OCSE audit and systems staff on several special projects, and would welcome such
interaction again in the future.

State and local respondents also stress the importance of continued automation in the program.
They believe this will facilitate greater uniformity and communication between the States.

Local respondents offer their own suggestions for the Federal role in the child support
enforcement program. The caseworker sees many clients who have very limited understanding of
the program, some of whom do not cooperate with her in sharing information on the non­


                                          )))))))))))
                                               15
custodial parent because they have no motivation to do so. She believes there should be greater
publicity of the program and believes the Federal government can play a stronger role in getting
the word out to the public.

State Child Support Director:	       Robert Doar

                                     Office of Child Support Enforcement

                                     Department of Social Services

                                     P.O. Box 14

                                     Albany, NY 12260-0014

                                     (518) 474-9081





                                         )))))))))))
                                              16

                                      SOUTH CAROLINA

Respondents Interviewed

We interviewed the Assistant Director for Regional and County Operations and the Assistant
Director for Contracts Management and Evaluation in the State office. We also had informal
discussions with the Child Support Director and several other State policy and legal staff. On a
busy court day, we spoke with eight local office workers.

Program Highlights

Nearly all respondents cite strong internal organization and the solid relationship with the family
court system as constituting the centerpieces of South Carolina’s child support enforcement
program. Respondents see few administrative layers between themselves and the child support
program director, which they believe allows changes to be made quickly. Respondents also
prize their relationship with a Family Court system that they say values child support enforcement
and plays a strong role in enforcement and collections. These courts make good use of contempt
procedures to collect arrearages and have also been very cooperative as the State develops
administrative processes, realizing that these processes free up the Court for enforcement work.

Since administrative processes were implemented in 1995, South Carolina has seen an increase in
support orders of 30 percent. In a State that values small government, respondents are proud of
what they have accomplished despite high caseloads. One State respondent says, “South Carolina
gets more bang for the buck than just about anyone.”

Working Relationships

State respondents’ relationship with the central OCSE office is mixed. They give that office high

marks for general information sharing and training. As one respondent notes, 

“[There was] thorough and helpful work on UIFSA training. They did an excellent job

disseminating information on New Hire and License Revocation. Their strength right now is

disseminating information to the States.” Another adds, “They are a very good resource at

conferences. They do a really good job there.” One State respondent believes, however, that

information sharing fell short when it came to disseminating workgroup status and results. 


Despite the high marks for information sharing and training, State respondents believe their

partnership with the central OCSE office has deteriorated. Their chief disagreement concerns

centralized collections. South Carolina interprets the Federal mandate differently than the central

office, reading “one place” as “one unified court system” as opposed to one geographical area. 

Respondents say that centralized collections is not well suited to South Carolina, given the

essential role the Family Court system plays in both enforcement and collections. They also say

that OCSE does not recognize the special role Family Court plays in their program and that the

State was unfairly asked to modify their already approved systems for collections on short notice. 

South Carolina also says that their request for a waiver from certain 1988 system requirements

was denied by OCSE and that their expressed interest in a centralized collections waiver has been



                                         )))))))))))
                                              17
repeatedly discouraged by OCSE. One respondent notes, “The law permits an exemption but
central office won’t give one. They said flat out ‘no exemptions.’” Respondents are frustrated
over the attitude that central office has taken while addressing this issue. They believe OCSE has
not been open or flexible on this matter.

State respondents are also eager to get past problems with automated systems because they see
properly functioning automated systems as being essential to their work, especially given their
staffing levels. Says one, “How fast can you keep up with people in an automated way? [This
requires] staff, automation, information, and a strong relationship with Family Courts and Sheriffs
Courts.”

In contrast to their relationship with the central OCSE office, State respondents cite a strong
working relationship with the regional office, which one calls “our best resource.” They believe
that this relationship could be stronger if the regional office were more empowered by the central
OCSE office. One State respondent observes that the regional office “[does not] always seem to
have the authority that they need.” Respondents also feel that the regional office is not always
kept sufficiently informed. One cites the following example: “South Carolina got their letter of
non-compliance yesterday, but central office didn’t tell the region that the letters were going out.
South Carolina and the regional office would have preferred the region to have advance notice.”

Local respondents have no contact with the central or regional OCSE offices. They essentially
spend a majority of their time either preparing to go to court, in court, or with parents.

State Suggestions

State and local respondents list several ways that OCSE could help them most with their State
program. First, they think OCSE should get regulations out faster. Respondents believe that this
was a problem especially with systems requirements. They would also like OCSE to provide
more information about legislation while it is still on the floor, as well as more information on its
likely impact on States. One respondent notes that she typically relies on the American Public
Welfare Association (APWA) or the governor’s office for such information.

Several respondents also report that they would like to see the regional office granted more
authority and to be brought into “the loop.” One respondent sees the regional office role as
related to some of the partnership difficulties mentioned above. “If you recognize that States
differ, then the regional office role can expand to identify State differences and ways to
accommodate them; if there is only one solution and it is Washington’s solution, then Atlanta has
no role to play.”

Finally, respondents believe it is important for OCSE to recognize State differences. One
respondent wonders about the existence of empirical evidence that initiatives will work across the
board and that “one size fits all.” Respondents feel that in the case of centralized collections, one
size does not fit all. A State respondent offers a second example of the need to recognize State
differences in saying “Some things in PRWORA [Personal Responsibility and Work Opportunity
Reconciliation Act] work well in one State but are disastrous in other States. The cost to


                                          )))))))))))
                                               18
implement [Bank Matches] is more than South Carolina will ever collect....According to
PRWORA States must pay banks what is ‘reasonable and necessary’ for the information.
Estimates provided to the OCSE Financial Institutions Match Workgroup indicate that the
potential collections from such a process could never be cost justified based on the estimated cost
of performing the matches.”

State Child Support Director:	        Larry J. McKeown
                                      Child Support Enforcement Division
                                      Department of Social Services
                                      P.O. Box 1469
                                      Columbia, SC 29202-1469
                                      (803) 737-5870




                                         )))))))))))
                                              19
                                             TEXAS


Respondents Interviewed

We interviewed four State Child Support Division staff from the interstate, enforcement, strategic
planning, and operations sections. At a local office, we interviewed an assistant attorney general
and a child support officer (caseworker). We also had informal discussions with State systems,
program monitoring, and training staff.

Program Highlights

According to most respondents, serving a widely diverse population is both the major success and
challenge of Texas’ program. They are proud of their success in implementing a program that
works in both urban centers and vast rural areas. They believe this success is due to committed,
knowledgeable staff and to giving local offices as much operational flexibility as possible.

Both State and local respondents believe one important strength of their program is their expertise
in handling interstate and international cases. They say this expertise developed from a need to
serve their relatively large, mobile immigrant and military population. A centralized State office
serves as the main registry and contact point for interstate cases. This unit consists of 10-12
workers who process petitions, advise local child support officers, and problem-solve difficult
interstate cases. Respondents say this group is especially effective because each worker
specializes in handling cases involving States from a particular region of the country.

State respondents also think their customer service section is a success. This section is located
centrally and consists of over 50 staff who handle telephone inquiries from throughout the State
about the child support program. Several respondents comment that “phone center” staff are
specialized experts at responding to requests from program clients and other agencies.

Working Relationships

State staff have mixed comments about their relationship with the central OCSE office. A few
respondents are happy with the strong, long-term relationships they have developed with central
OCSE systems staff over the years. These respondents see systems staff as valuable experts, who,
unlike OCSE as a whole, are accessible and responsive. They say the support provided by
systems staff during on-site visits is especially helpful.

In contrast to the positive comments noted above about systems staff, most State respondents
report having less satisfying experiences with other parts of the central OCSE office. They
believe the central office is unsupportive and lacks flexibility to accommodate State needs. One
respondent says that when State staff ask questions, the central office “gets bogged down in
unimportant details, and doesn’t give definitive answers.” Other respondents believe the central
OCSE office is not fully committed to Federal/State partnership in the program. For example,
participants in Federal/State workgroups generally think they are worthwhile, but they are divided
about how much they believe OCSE values State input from these workgroups. While


                                         )))))))))))
                                              20
respondents from systems workgroups say they feel their voice is heard, those in the forms
workgroup say their proposals and recommendations are basically ignored by OCSE. Finally,
some respondents say OCSE needs more consistency between branches such as policy and audit.

Unlike their experience with the central OCSE office, all State respondents are very satisfied with
their regional office. They have strong, positive relationships with the region. They say that
regional staff, some of whom have 20 years of experience in the program, are very
knowledgeable. Respondents believe regional staff are aware of the realities of State programs
and understand what is reasonable at the operational level. They say regional staff are accessible
and helpful. One State respondent comments that the region “takes a problem-solving approach,
and really wants us to succeed.”

Local respondents have little contact with either the central or regional OCSE offices. One local
respondent has asked the central office for help with interstate cases in the past, and found them
to be unhelpful and unresponsive. He says that other Federal offices, including the Veterans’
Administration and the Social Security Administration give him much better support. Another
respondent has infrequent contact with central and regional OCSE staff on a national workgroup.

State Suggestions

In general, both State and local respondents are strong States’ rights advocates. They believe that
child support enforcement clearly falls within the State jurisdiction of family law. Despite this
philosophy, however, they recognize the importance of working with their Federal partners and
do give some examples of what kind of help they would like to get from OCSE.

All State respondents view the regional OCSE office as an integral part of their program. They
value the support given by their regional representatives and by those of other States within their
region. Respondents therefore believe the program would benefit from giving even more
authority and responsibility to the regional office. Accordingly, they support the decentralization
of policy and operational decisions to the regional level.

Several State and local respondents also think the central OCSE office should standardize certain
procedures at the national level. They mention interstate case processing as one example that
could especially benefit from such standardization. Calculating arrearages and interest rates for
interstate cases is extremely complicated, according to respondents. They believe that these cases
could be processed more efficiently if all States used the same forms and accounting process.
Respondents would also like to see the central OCSE office play a stronger role in resolving
interstate case disputes.

State respondents believe that OCSE often waits too long to solicit operational input from States
on proposed program changes. They would like OCSE to use workgroups more proactively to
get State input on feasibility, costs, and implementation barriers. Respondents believe this
feedback would be most useful before OCSE develops and imposes national regulations.

Both State and local respondents additionally think OCSE should continue increasing their use of


                                          )))))))))))
                                               21
technology for information sharing. They like that OCSE now accepts electronic comments on
regulations, and think that other information should also be put in a more accessible format. For
example, they suggest that action transmittals and “Dear Colleague Letters” be put online.

Finally, local respondents would like central OCSE staff to visit local offices, and think policy
could be improved if OCSE would get more operational input from local workers.

State Child Support Director:	         David Vela
                                       Child Support Division
                                       Office of the Attorney General
                                       P.O. Box 12017
                                       Austin, TX 78711-2017
                                       (512) 460-6000




                                          )))))))))))
                                               22
                                 APPENDIX A
In this appendix, we present in full the comments from the Administration for Children and
Families.




                                        )))))))))))
                                            A-1
)))))))))))
    A - 2

